                              Office of Inspector General
                             Corporation for National and
                                      Community Service




              AUDIT OF THE
CORPORATION FOR NATIONAL AND COMMUNITY
    SERVICE'S NATIONAL SERVICE TRUST
   SCHEDULE OF FISCAL 2004 BUDGETARY
      RESOURCES AND OBLIGATIONS
            Audit Report Number 05-03
                 October 29,2004




                                             Cornoration for             A



                                                 NATIONAL^
                                             COMMUNITY




                      Prepared by:

             COTTON & COMPANY LLP
           333 North Fairfax Street, Suite 401
               Alexandria, Virginia 22314




 This report was issued to Corporation management on November 12,2004.
                           Office of Inspector General Summary
              Audit of the Corporation for National and Community Service's
                                   National Service Trust
               Schedule of Fiscal 2004 Budgetary Resources and Obligations
                                     Audit Report 05-03


In accordance with the Strengthen AmeriCorps Program Act, the Office of Inspector General
(OIG) engaged Cotton and Company LLP to audit the Corporation for National and Community
Service's National Service Trust Schedule of Fiscal 2004 Budgetary Resources and Obligations.
The Strengthen AmeriCorps Program Act requires an independent annual audit of the accounts of
the Corporation relating to the appropriated funds for approved national service positions, and the
records demonstrating the manner in which the Corporation has recorded Trust obligations.

The Strengthen AmeriCorps Program Act directs that, beginning in fiscal year 2003, Trust
obligations be recorded at the time the Corporation enters into an enforceable agreement with a
National Civilian Community Corps (NCCC) member, or a member of Volunteers in Service to
America (VISTA). In addition, the Act requires the Corporation to record Trust obligations when
it awards a grant to an AmeriCorps State and National program. The Act also directs that the
obligational amount be based on the estimated value of the education benefit, factoring in
enrollment estimates, earning and usage rates, and the time value of money. The Act further
requires the Corporation to establish a reserve account in the event that estimates used to
calculate obligational amounts are insufficient to pay for education awards.

In summary, Cotton and Company concluded that the Corporation's Schedule of National Service
Trust Schedule of Fiscal 2004 Budgetary Resources and Obligations presents fairly, in all
material respects, the budgetary resources and obligations for the year ended September 30,2004.




                        1201 New York Avenue, NLV, Suite 830 * \Vashington, DC 20525
                           202-606-5000 * Hotline 800-452-8210 * www.cncsig.gov                       USA-
                                                                                                          -
                                                                                                      Freedom Corps
                             Senior Corps   *   i-\meriCorps + Learn and Serve America                ~h~ PrrwIcnl'\ C.,U to S c r v ~ c r
                                           auditors advisors



Inspector General
Board of Directors
Corporation for National and Community Service



We have audited the accompanying National Service Trust Schedule of Fiscal Year 2004 Budgetary
Resources and Obligations of the Corporation for National and Community Service (Corporation) for the
year ended September 30, 2004. This schedule is the responsibility of Corporation management. Our
responsibility is to express an opinion on this schedule based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance that the schedule of budgetary resources and
obligations is free of material misstatement. An audit includes examining, on a test basis, evidence
supporting amounts and disclosures in the schedule of budgetary resources and obligations. An audit also
includes assessing accounting principles used and significant estimates made by management, as well as
evaluating overall schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

The accompanying schedule of budgetary resources and obligations was prepared for the purpose of
complying with the provisions of the Strengthen AmeriCorps Program Act (Pub. L. No. 108-45), as
discussed in Note A, and is not intended to be a presentation in conformity with accounting principles
generally accepted in the United States of America.

In our opinion, the National Service Trust Schedule of Fiscal Year 2004 Budgetary Resources and
Obligations referred to above presents fairly, in all material respects, its budgetary resources and
obligations for the year ended September 30,2004, on the accounting basis described in Note A.

In accordance with Government Auditing Stundurds, we have also issued our reports, dated October 29,
2004, on our consideration of the Corporation's internal control over financial reporting and on our tests
of its compliance with provisions of laws and regulations. Our reports on internal control and compliance
are an integral part of an audit conducted in accordance with Government Auditing Standards, and should
be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of the United States Congress, the President, the
Director of the Office of Management and Budget, the Comptroller General of the United States, the
Corporation, and the Inspector General. It is not intended for, and should not be used by, anyone other
than these specified parties.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner

October 29,2004
Alexandria, Virginia
NATIONAL SERVICE TRUST FISCAL 2004 BUDGETARY RESOURCES

                          Corporation for National and Community Service
                                         National Service Trust
                     Schedule of Fiscal 2004 Budgetary Resources and Obligations
                                       As of September 30,2004
                                                 (dollars in thousoncis)

     Resources
     Funds Available for Award, Beginning of Year                          $       9,979
     Fiscal 2004 Appropriation                                                   130,000
     Transfer from Fiscal 2004 Program Appropriation                              13,101
     Trust Reserve                                                                (9,941)
     Rescissions                                                                    (767)
     Total Resources Available for Obligation                                                  $     142,372


     2004 Obligations
     Education Awards
     Interest Forbearance
     President's Freedom Scholarships
     Total Obligations
I
1I   Funds Available for Award, End of Year



NOTES TO THE SCHEDULE
A. Basis of Accounting

The Schedule of Fiscal 2004 Budgetary Resources and Obligations for the National Service Trust (Trust) has been
prepared from the books and records of the Corporation in accordance with the Strengthen AmeriCorps Program Act
(Public Law 108-45, 42 USC 5 12605) for the period commencing October 1, 2003 and ending September 30, 2004.

The activities of the Trust are funded through the Veterans Affairs, Housing and Urban Development, and
Independent Agencies bill, which funds National and Community Service Act programs. Appropriations are
provided on a no-year basis for the Trust, a fund within the Corporation used to provide education awards to eligible
participants. Trust appropriations do not expire with the passage of time and are retained by the Corporation in the
Trust until used for eligible education award purposes.

 The Trust provides awards for AmeriCorps members serving in approved national service positions under
 AmeriCorps*State and National, AmeriCorps*NCCC, and AmeriCorps*VISTA, as well as for the ArneriCorps
 Education Award Program, where sponsoring organizations are responsible for providing member subsistence and
 other costs, and the Corporation provides an education award and a small amount for administrative costs.

 Funds from the Trust may be expended for the purpose of providing an education award or interest forbearance
 payment and nust always be paid directly to a qualified institution (college, university, or other approved
 educational institution, or a lending institution holding an existing student loan) as designated by the participant, as
 well as for payments under the President's Freedom Scholarship Program.
The recognition of budgetary accounting transactions is essential for compliance with legal constraints and controls
over the use of Federal funds. Budgetary accounting principles are designed to recognize the obligation of funds
according to legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction. The
Strengthen AmeriCorps Program Act directs that, beginning with fiscal 2003, Trust obligations be recorded at the
time the Corporation enters into an enforceable agreement with an individual participant to serve in a program
carried out under subtitle E of title I of the National and Community Service Act of 1990 (42 USC 3 1261 1 et seq.),
or title I of the Domestic Volunteer Service Act of 1973 (42 USC 9 495 1 et seq.), or awards a grant to (or enters into
a contract or cooperative agreement with) an entity to carry out a program for which such a position may be
approved under section 123 of the Act (42 USC 5 12573). The Strengthen AmeriCorps Program Act also directs
that the obligational amount be based on the estimated value of the education benefit, discounted for the estimated
enrollment, earning and usage rates, and the time value of money.

For fiscal 2004, the Corporation used the following assumptions to calculate Trust obligations and budgetary needs:
full value of the education award, 100 percent enrollment rate, 80 percent earning rate, and 80 percent usage rate.
These enrollment, earning, and usage rates are more conservative than historical rates used previously in
detem~iningthe Corporation's budgetary needs.


B . Trust Appropriation for Program Year 2004

The program year 2004 Trust appropriation was composed of a $130 million appropriated in the 2004 Consolidated
Appropriations Act (P.L. 108-199) less the $767 thousand Trust portion of the rescission to NCSA pursuant to the
Miscellaneous Appropriations and Offsets Act of 2004. In addition, $13.1 million was transferred from program
appropriations to the Trust pursuant to the 2004 Consolidated Appropriations Act (P.L. 108-199).


C . Trust Reserve

As required by the Strengthen AmeriCorps Program Act, in fiscal 2004 the Corporation set aside in reserve a portion
of the funds appropriated to the Trust in the event that its estimates used to calculate obligational amounts for
education awards prove to be too low. As of September 30, 2004, $9.9 million of the amount originally
appropriated to the Trust in 2004 had been set aside for this reserve. The total amount held in reserve under this
provision for 2003 and 2004 was $19.9 million as of September 30, 2004.
